No:
IN THE
SUPREME COURT OF THE UNITED STATES

CEDRIC DURAND COLLINS.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Cedric Durand Collins, pursuant to SUP CT. R. 39.1, respectfully
moves for leave to file the accompanying petition for writ of certiorari in the
Supreme Court of the United States without payment of costs and to proceed in
forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ' 3006A. Therefore, in reliance upon
RULE 39.1 and ' 3006A(d)(6), Petitioner has not attached the affidavit which would
otherwise be required by 28 U.S.C. ' 1746.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
West Palm Beach, Florida
February 25, 2021

By: s/ Scott Berry
Scott Berry
Assistant Federal Public Defender
450 S. Australian Ave., Suite 500
West Palm Beach, FL 33401
(561) 833-6288

